  $@.                                              NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL

   .
   4
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM
    0
          ,
       04 A+0
                                                                              ,
                                                   ,
 Case Number: A04050025                                                                       Page 1 of 1



          An allegation was received that the subjects' committed plagiarism in their NSF proposal2by not
          specifically citing sources of statistics supporting the need for educational training. There is no
          separate "References" section in the proposal; facts and statistics in the proposal text are usually
          accompanied by an in-line citation by name in the text, or a footnoted reference in a figure or
          table. Such citations or footnotes are often informal and abbreviated, but in no instance were the
          factual results claimed to be products of the author's original work. In two instances, no citations
          (even incomplete) were provided for facts and figures that seemed to be drawn from an external
          reference. However, in both these instances, the source of the facts and figures was identified as
          the report of the NSF-supported workshop3that preceded issuance of the request-for-proposals
          (RFP), and it is therefore reasonable that the authors of proposals generated in response to the
          RFP would draw support fiom that report. The workshop report is not a product of particular
          authors, but carries a copyright 2002 of an educational ass~ciation.~   The un-cited facts mirrored
          in the proposal appear in the text of the "Introduction" of that workshop report, and could
          reasonably be considered to be information in the public domain, freely available for use. The
          copyright notice for the report is accompanied by the statement "photocopying for nonprofit
          educational purposes is permitted." The copyright notice also cites the,on-line availability of the
          report.

          We conclude that the subject's lack of explicit citation to the NSF-supported workshop report
          does not rise to a level that requires our action.

          Accordingly, this case is closed.




                                                                                                            *




          '   Redacted
              Redacted
              Redacted.
              Redacted.



NSF OIG Form 2 (1 1/02)
